WAIVER
SUPREME COURT OF THE UNITED STATES
No.

21-5330
Nandan Patel, et. al.

Laura Marie Scott

(Respondent)

V.

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by

the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Nandan Patel, Enterprising Real Estate, LLC

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

e

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:

9/8/21

Date:

(Type or print) Name Gregory G. Dean
0 Mr.

®Ms.

0 Mrs.

Firm

Law Offices of Gregory Dean, PLLC

Address

129 N. Lafayette Street

City & State

South Lyon, Michigan

Phone

248-921-5098

0 Miss

Zip 48178
Email ggd@gregorydeanlaw.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of servic .orsgztrietter is required.

cc:

Laura Marie Scott, 2968 Hanley, Hamtramck, MI 48212
Ricardo I. Kilpatrick, 903 N. Opdyke, Ste. C, Auburn Hills, MI 48326
Jacob S. Ghannam, 400 Monroe, Suite 660, Detroit, MI 48226
James P. Allen, 400 Monroe, Suite 620, Detroit, MI 48226

